OFFICE OF THE
SECRETARY
The Department’s
Awarding and
Administering of Time-and-
Materials and Labor-Hours
Contracts Needs
Improvement
FINAL REPORT NO. OIG-14-001-A
NOVEMBER 8, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Office of Inspector General
                                                             Washington, D.C. 20230




November 8, 20 I 3

MEMORANDUM FOR:              Barry E. Berkowitz
                             Senior Procurement Executive
                             Di/rl\ of Acquisition Management

                                VJ-l~-
FROM:                        Andrew Katsaros
                             Assistant Inspector General for Audit

SUBJECT: 	                   The Department's Awarding and Administering of Time-and-Materials
                             and Labor Hours Contracts Needs Improvement
                             Final Report No. OIG-14-001-A

Attached is our final report on our audit of Department-wide time-and-materials and labor
hours (T&M/LH) contracts from fiscal years (FYs) 2009-2011. Our objective was to determine
whether the National Oceanic and Atmospheric Administration, Census Bureau, and National
Institute of Standards and Technology properly awarded and administered these contract
actions.

We determined that contracting and program officials did not properly award and administer
T&M/LH contracts and task orders for work performed. These conditions occurred because
contracting and program officials did not follow the Federal Acquisition Regulation (FAR) and
Commerce Acquisition Manual (CAM) for awarding and administering T&M/LH contract
actions.

Specifically, our findings examine contract award and oversight procedures, the accuracy and
completeness of data reported and records maintained by the bureaus on the use of T&M/LH
contracts, contract files and contract documentation, and the deobligation of inactive funds on
completed T&M/LH contracts. Our findings include potential monetary benefits to the
Department-in the form of unsupported costs and funds put to better use-totaling more
than $170 million.

The final report will be posted on OIG's website pursuant to section SL of the Inspector
General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. We appreciate the assistance and
courtesies extended to us by the Department and its bureaus. If you have any questions about
this report, please contact me at (202) 482-7859 or Mark Zabarsky, Audit Director, at
(202) 482-3884.

Attachment
                                                 Report In Brief                                         N OV E MB E R 8 , 2 0 1 3



Background                                   OFFICE OF THE SECRETARY
For fiscal years (FYs) 2009–2011, the        The Department’s Awarding and Administering of Time-and-Materials and
Department awarded 1,383 time-and-
materials (T&M) and labor-hour (LH)
                                             Labor-Hours Contracts Needs Improvement
contracts, with a total obligated value      OIG-14-001-A
of approximately $1.3 billion. These
contract types require contractors to        WHAT WE FOUND
provide their best effort, up to a maxi-
mum number of hours authorized.              We determined that contracting and program officials did not properly award and administer
Each hour of work authorizes a con-          T&M/LH contracts and task orders for work performed. These conditions occurred because
tractor to charge the government an          contracting and program officials did not follow FAR and the Commerce Acquisition Manual
established labor rate, which includes       (CAM) for awarding and administering T&M/LH contract actions, specifically regarding:
profit. T&M/LH contracts are consid-           Contract and task order award procedures. We found that (a) contracting officers’
ered high risk because the government          written determination and findings documents either were missing or did not include
assumes the risk for cost overruns.            sufficient rationales for why lower risk contract types could not be used and (b) contracting
Because of this high risk, the Federal         officers did not justify changes in negotiated ceiling prices. We determined that contracting
Acquisition Regulation (FAR) requires          officers did not justify the use of these contract types for 49 of the 62 contract actions we
appropriate government monitoring of           examined. Also, contracting officers did not justify and document in the contract file the
contractor performance for reasonable          reasons for changes to the established ceiling prices for 11 contract actions.
assurance of efficient methods and
effective cost controls. Further, FAR          Contract oversight procedures. We found that Departmental contracting and program
directs that T&M/LH contracts may              officials did not sufficiently monitor contractor performance. Specifically, these officials did
only be used when it is not possible at        not: (a) develop quality assurance surveillance plans for 21 contract actions, (b) maintain
the time of award to estimate accu-            adequate documentation of completed contractor performance reviews or quality assurance
rately the extent or duration of the           evaluations for 35 contract actions, or (c) adequately support payment of contractor
work or to anticipate costs with any           invoices for 28 contract actions.
reasonable degree of confidence. For         Further, we found that:
many years, FAR has required contract-
ing officers to document justification for     The Department’s volume of T&M/LH contracts is unclear because bureaus’ reported
the use of each T&M/LH contract.               data and maintained records on T&M/LH contracts were inaccurate and incomplete.
                                               Twelve of the 62 contract actions (almost 20 percent) in our sample were incorrectly coded
Why We Did This Review
                                               in Federal Procurement Data System–Next Generation (FPDS-NG), in which CAM requires
Since 2009, the government has in-             contract reporting.
creasingly regulated contracts other
than firm fixed price contracts. A Pres-       Contract files are missing or lack key contract documentation. One bureau was unable
idential Memorandum on Government              to locate the contract file for two contracts identified in our sample. We also found that
Contracting, issued March 4, 2009,             contract files lacked documents such as determinations and findings and quality assurance
emphasized the importance of agencies          surveillance plans (QASPs).
becoming more fiscally responsible in
                                               Funds on completed T&M/LH contracts are not always deobligated. On one contract
their contract actions by governing the
                                               we reviewed, about $1.3 million in obligation remained outstanding after work was
appropriate use and oversight of all
                                               completed in September 2011. This example is indicative of the issue that we identified in
contract types and cutting contract
                                               Monitoring of Obligation Balances Needs Strengthening (OIG-13-026-A).
costs. In July 2009, the Office of Man-
agement and Budget (OMB) directed            WHAT WE RECOMMEND
agencies to reduce the use of high-risk
contracts, which include cost-               We recommend that the Director of Acquisition Management
reimbursement and T&M/LH contract
types. In our Department-wide audit,           1. 	 Include a review of T&M/LH contracts, as part of the Department’s annual acquisition
we reviewed 43 contracts composed                   management reviews, for proper determination and findings, documented changes in
of 62 various T&M/LH contract actions               established ceiling prices, QASPs to document contractor performance, and verified
to determine whether the National                   contractor invoices with supporting documentation;
Oceanic and Atmospheric Administra-
                                               2. 	 Monitor and evaluate the use and management of T&M/LH contracts through the 

tion (NOAA), the Census Bureau, and
                                                    acquisition review board and investment review board processes; 

the National Institute of Standards and
Technology (NIST) properly awarded             3. 	 Improve the process for entering accurate and complete data into FPDS-NG; and
and administered these contract actions.
                                               4.	 Improve controls to properly maintain and safeguard contract files.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Objectives, Findings, and Recommendations .............................................................................................2
 
   I.  Contract and Task Order Award Procedures Need Improvement.............................................3
 
       A.  Justifying the Use of T&M/LH Contract Actions ......................................................................3
 
       B.  Justifying the Change in Negotiated Ceiling Prices ...................................................................5
 
 II.  Contractor Oversight Procedures Need Improvement .................................................................6
 
       A.	  Lack of Quality Assurance Surveillance Plans (QASPs)and Missing Surveillance 

            Documentation ................................................................................................................................7
 
       B.	  Inadequate Support of Invoice Payments....................................................................................8
 
 III.  Misunderstandings and Errors Cast Doubt on the Reliability of Data Accuracy and 

       Incomplete Reporting of T&M/LH Contracts....................................................................................9
 
 IV.  Contract Files Are Missing or Lack Key Contract Documentation .......................................... 11
 
 V.  Funds on Completed T&M/LH Contracts Run the Risk of Not Being Deobligated .............. 12
 
 Recommendations ....................................................................................................................................... 12
 
Summary of Agency Response and OIG Comments............................................................................. 13
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 14
 
Appendix B: Summary of Findings by Bureau and Contract Action .................................................. 16
 
Appendix C: Potential Monetary Benefits................................................................................................ 21
 
Appendix D: Agency Response .................................................................................................................. 22
 




                                                                                                                        COVER: Detail of fisheries pediment, 
                                                                                                           U.S. Department of Commerce headquarters,
 
                                                                                                                   by sculptor James Earle Fraser, 1934 





FINAL REPORT NO. OIG-14-001-A
  DEPARTMENT OF COMMERCE
U.S.                                                                                      OFFICE OF INSPECTOR GENERAL


Introduction 

For fiscal years (FYs) 2009–2011, the Department1 awarded 1,383 time-and-materials (T&M)
and labor-hour (LH) contracts, with a total obligated value of approximately $1.3 billion (see
table 1). These contract types require contractors to provide their best efforts, up to the
maximum number of hours authorized, to accomplish contract objectives. Each hour of work
authorizes a contractor to charge the government an established labor rate, which includes
profit.

                      Table 1. Summary of FY 2009–2011 T&M/LH Contract Awards
                     and Obligation Amounts Processed by Census, NIST, and NOAA
                            Number                    Number      Number
         Fiscal                                                                Total          Total Amount
                           of Census                   of NIST    of NOAA
         Year                                                                 Contracts       Obligated ($)
                           Contracts                  Contracts   Contracts
         2009                   65                          48        177        290             349,756,356
         2010                  114                          64        260        438             500,221,804
         2011                  129                         102        424        655             463,471,755
         Totals               308                         214         861      1,383          1,313,449,915
       Source: Federal Procurement Data System-Next Generation

T&M/LH contracts are considered high risk because the contractor’s profit is tied to the
number of hours worked; therefore, the government assumes the risk for cost overruns.
Because of the high risk associated with T&M/LH contracts, the Federal Acquisition Regulation
(FAR) provides that appropriate government monitoring of contractor performance is required
to give reasonable assurance that efficient methods and effective cost controls are being used.
Further, because of the risks involved, FAR directs that T&M/LH contracts may only be used
when it is not possible at the time of award to estimate accurately the extent or duration of the
work or to anticipate costs with any reasonable degree of confidence. For many years, FAR has
required contracting officers to prepare determination and findings documents that justify the
use of each T&M/LH contract, including reasons why no other contract type would be suitable.

Since 2009, the government has increased its efforts to regulate the use and management of
contracts other than firm fixed price contracts. A Presidential Memorandum on Government
Contracting, issued March 4, 2009, emphasized the importance of agencies becoming more
fiscally responsible in their contract actions by governing the appropriate use and oversight of
all contract types and cutting contract costs. In July 2009, the Office of Management and Budget
(OMB) directed agencies to reduce the use of high-risk contracts, which include cost-
reimbursement and T&M/LH contract types.




                                                            
1
 The Department total comprises contract actions and obligation amounts for only the Census Bureau, the
National Institute of Standards and Technology (NIST), and the National Oceanic and Atmospheric Administration
(NOAA) as the contracting agencies.


FINAL REPORT NO. OIG-14-001-A                                                                                      1
  DEPARTMENT OF COMMERCE
U.S.                                                                                                 OFFICE OF INSPECTOR GENERAL


Objectives, Findings, and Recommendations 

In this Department-wide audit, out of the 1,383 T&M/LH contracts, we reviewed a stratified
random sample of 43 contracts composed of 62 various types of T&M/LH contract actions (e.g.,
contracts, task orders,2 and blanket purchase agreements3) valued at a total negotiated ceiling
price of more than $58 million. Our objective was to determine whether NOAA, Census, and
NIST properly awarded and administered these contract actions.

We determined that contracting and program officials did not properly award and administer
T&M/LH contracts and task orders for work performed (see table 2). These conditions
occurred because contracting and program officials did not follow FAR and the Commerce
Acquisition Manual (CAM) for awarding and administering T&M/LH contract actions.
                                                    Table 2. Summary of Findings, by Bureau
                          Total
                                                                           Increase in                                Invoice
                        Number                                 Contract                   Lack of
                                                Total                      Negotiated                   Missing      Payments
                           of                                    Type                     Quality
     Bureau                                  Negotiated                       Ceiling                 Surveillance      Not
                        Contract                                 Not                     Assurance
                                             Ceiling Price                  Price Not                Documentation   Adequately
                         Actions                               Justified                   Plans
                                                                             Justified                               Supported
                        Reviewed
     Census
                              11              $15,724,293          5            2            0            9               6
     Bureau
                                   a
     NIST                     23               6,068,957         23             5            3             4             4
     NOAA                     28 b            36,785,201         21             4           18            22            18
     TOTALS                   62            $58,578,451          49            11           21            35            28

    Source: OIG review of contract files

    a We reviewed a total of seven different NIST contracts. For five of these contracts, we reviewed 21 separate task orders.

    b We reviewed 25 unique NOAA contracts composed of 28 contract actions.




Specifically, regarding contract and task order award procedures (see finding I), we found that:
       	 Contracting officers’ written determination and findings documents either were missing
          or did not include sufficient rationales for why lower risk contract types could not be
          used.
       	 Contracting officers did not justify changes in negotiated ceiling prices.
Regarding contract oversight procedures (see finding II), we found that:
       	 Contracting officers and program officials did not prepare Quality Assurance
          Surveillance Plans (QASPs), and they did not perform effective surveillance over
          contractor performance (from 1,383 T&M/LH contracts awarded FYs 2009–2011, we
          estimate that as of September 30, 2011, approximately $169.5 million was paid to
          contractors without adequate surveillance documentation of contractor performance;
          see appendix C for unsupported costs we identified as monetary benefits to the
          Department).


                                                            
2
 A task order is an order for services placed against an established contract or with government sources.
3
 A blanket purchase agreement is a simplified method of filling anticipated, repetitive needs for supplies or services
by establishing charge accounts with qualified sources of supply.


FINAL REPORT NO. OIG-14-001-A                                                                                                     2
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL

       	 Contracting and program officials did not ensure that T&M/LH contract actions were
          properly supported by individual timesheets before payment of invoices.
Further, we found that:
       	 The Department’s volume of T&M/LH contracts is unclear because data reported and
          records maintained by the bureaus on the use of T&M/LH contracts were inaccurate
          and incomplete (see finding III.)
       	 Contract files are missing or lack key contract documentation (see finding IV).
       	 Funds on completed T&M/LH contracts are not always deobligated (see finding V).

While T&M/LH contracts are appropriate when specific circumstances justify the risks, we
conclude that heightened management controls are needed, including thorough justifications
specific to the individual procurements that provide insight to management about why T&M/LH
contracts are being used. Without proper monitoring of T&M/LH contractor performance, the
risk of wasted government dollars is increased.
Appendix A further details the objectives, scope, and methodology of our audit. Appendix B
summarizes the findings associated with each bureau. Appendix C charts the potential
monetary benefits we found from our review.

    I.        Contract and Task Order Award Procedures Need Improvement

       Departmental contracting officers did not award T&M/LH contract actions in accordance
       with FAR and CAM requirements. We determined that contracting officers did not justify
       the use of these contract types for 49 of the 62 contract actions we selected for this audit.
       Also, contracting officers did not justify and document in the contract file the reasons for
       changes to the established ceiling prices for 11 contract actions. As a result, the contracting
       officers may have incurred additional costs by not negotiating reasonable ceiling prices and
       unnecessarily using a riskier contract type.

              A.	 Justifying the Use of T&M/LH Contract Actions

              FAR4 requires contracting officers, when choosing to use a T&M/LH contract, to
              provide sufficient facts and circumstances in a written justification, known as a
              determination and findings,5 concluding that no other contract type is suitable for the


                                                            
4
  Though the law continues to change, even at the beginning of the period covered by the scope of this audit and
continuing through the period of audit fieldwork, FAR sections FAR 8.405-2(e)(7), governing federal supply
schedules (now (f)(7)), and 16.601(d)(1), governing time-and-materials contracts, both have required the
government, before entering into a T&M/LH contract, to document why other preferable types of contracts were
not suitable or not used.
5
  Determination and Findings is a special form of written approval by an authorized official that is required by
statute or regulation as a prerequisite to taking certain contract actions. The “determination” is a conclusion or
decision supported by the “findings.” The findings are a statement of fact or rationale essential to support the
determination and must cover each requirement of the statute or regulation.


FINAL REPORT NO. OIG-14-001-A                                                                                        3
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

              acquisition. CAM6 requires that the justification must:
                      	 Demonstrate the need for a T&M/LH contract and explain why it is not possible
                         at the time of placing the contract or order to estimate accurately the extent or
                         duration of work or anticipated costs with any reasonable degree of confidence
                      	 Include a description of the market research conducted
                      	 Describe actions planned to maximize the use of firm fixed price (or fixed-price
                         with economic price adjustment) contracts on future acquisitions for the same
                         requirement
              However, contracting officials did not follow FAR and CAM criteria regarding
              justification for using T&M/LH contracts. First, we found that contracting officers either
              did not prepare a determination and findings document or it was missing from the
              contract file for 22 of the 49 contract actions. For example, on one T&M task order
              awarded against a blanket purchase agreement for IT infrastructure technical services
              support to the National Environmental Satellite,
              Data, and Information Service (NESDIS), the              Written justifications were
              contracting officer did not provide evidence of
              the preparation of a determination and findings
                                                                        not prepared for the use
              document. NOAA contracting officials awarded             of time-and-materials and
              the contract on January 13, 2010, for a ceiling             labor-hour contracts.
              price amount of $3.5 million. Contracting
              officials stated they could not locate the determination and finding document that
              justified the use of this type of contract for this procurement. The contract was
              awarded as a T&M contract. On another contract for accounting and financial support
              —valued at about $3.2 million—NIST contracting officials could not find the
              determination and finding document in the contract file.

              Second, we found that contracting officers also did not prepare adequate determination
              and findings documents for the other 27 contract actions to justify a T&M/LH contract.
              Generally, the determinations and findings documents that were prepared simply quoted
              FAR criteria for when a T&M contract is appropriate. This was done without providing
              further explanation or supporting documentation for why those contract actions met
              the criteria. For example:
                      	 On June 25, 2010, a contracting officer definitized a letter contract for a
                         negotiated ceiling price of $2.5 million for a base year and two 2-year option
                         periods to provide contractor support for 2020 Census research support
                         planning. On the same day, the contracting officer prepared and approved a
                         determination and findings document. This document outlined in general terms
                         why a T&M type contract must be used, stating that “a T&M/LH contract is
                         suitable since it is not possible to anticipate costs with any reasonable confidence
                         at time of contract award.” However, the contracting officer did not specify why
                         it was not possible to anticipate or estimate costs. In this instance, while the
                                                            
6
 As of December 2010, the CAM has reinforced this requirement for documenting the rationale for using
T&M/LH contracts.


FINAL REPORT NO. OIG-14-001-A                                                                                4
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

                             contracting officer was able to definitize the letter contract within 180 days, as
                             required by FAR,7 the Census Bureau entered into the contract without
                             sufficiently justifying the urgency of the need.
                      	 On one NIST LH task order to provide scientific and technical services to test
                         structural support materials—totaling approximately $174,300—the
                         determination and finding document only contained information defining the
                         requirement, funding limitations, and cost differences between a contract
                         employee and a full-time equivalent. This document did not contain facts or
                         rationale justifying why no other contract type was suitable.

              Third, contracting officers did not always make an attempt to convert follow-on8
              contracts to a different contract type, even when historical data existed. One way to
              decrease the risks inherent in T&M/LH contracts is to convert to a less risky contract
              type for follow-on efforts. In fact, FAR and CAM caution contracting officers to avoid
              the protracted use of T&M/LH contracts when preparing the requirements for a follow-
              on contract. Program officials should work with the contracting officer to determine
              whether any portion can be broken out and ordered on a fixed-price basis.

              For example, we noted that NIST awarded three indefinite quantity contracts—
              associated with 18 task orders with ceiling prices ranging between $12,435 and
              $213,460—which were follow-on awards to earlier contract actions awarded to the
              same contractor for engineering and technical services. The determination and findings
              documents did not describe actions to maximize the use of firm fixed price contracts on
              future acquisitions for the same requirement, as required by CAM.9

              The inadequacy of the documentation supporting the use of T&M/LH contracts does not
              necessarily indicate that the contract was inappropriate. However, contracting officers
              may have incurred unnecessary costs by using the riskiest contract type that provides
              no incentive to the contractor for cost control or labor efficiency. When preparing a
              determination and findings document, contracting officers must specifically explain why
              the work to be performed is appropriate for a T&M/LH contract. This will help ensure
              that the government does not incur excessive cost growth on these contracts when a
              less risky contract type would be more appropriate.

              B.	 Justifying the Change in Negotiated Ceiling Prices

              FAR10 states that contracting officers may only use a T&M/LH contract if the contract
              includes a ceiling price that the contractor exceeds at its own risk. FAR and CAM11
              require contracting officers to justify and document in the contract file the reasons for
              any subsequent change in the ceiling price.
                                                            
7
  FAR subsection 16.603-2(c).

8
  A follow-on contract action requests the repeat supply of goods or services supplied under the original contract.

9
  CAM 1316.1 § 5.3(a).

10
   FAR subsection 16.601(d)(2).

11
   FAR subsection 12.207(b)(1)(ii)(C) and CAM 1316.1 § 5.3.(d).



FINAL REPORT NO. OIG-14-001-A                                                                                          5
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

          We found that contracting officers did not justify a total increase of approximately $3.3
          million in negotiated ceiling prices for 11 contracts’ actions. As a result, the Department
          assumed additional cost risk and may have paid excessive costs and more than fair and
          reasonable prices. In general, the ceiling prices were increased because of revised scope
          work that extended the period of performance or added labor category positions.
          However, the contract files did not contain either adequate or, in some instances, any
          documentation explaining that it was in the best interest of the procuring agency to
          increase the ceiling price. For example:

              	 A NIST contracting officer issued a task
                 order on September 17, 2009, for                      Contracting officers
                 programming services to support the                 did not justify changes
                 Revolving Loan Fund Management System.                  in ceiling prices.
                 The task order had a ceiling price of
                 $409,845 for the base year and 1 option
                 year. However, on September 20, 2010, the contracting officer issued a
                 modification to increase the ceiling price by $251,814, or 39 percent. The
                 modification added 1,723 additional hours and extended the period of
                 performance by 5 months. The contracting officer did not justify and document
                 the need in the contract file for the increased ceiling price amount.

              	 On one contract action—valued at about $3,191,494—for support services to
                 enhance the mission of the Office of Satellite and Product Operations, a NOAA
                 contracting officer issued a modification to increase the ceiling price to
                 $3,429,234. The modification revised the statement of work to include other
                 direct costs for support services for meeting preparation and coordination, local
                 and nonlocal travel, and training courses. The contracting officer did not prepare
                 a justification explaining why the ceiling price increase was necessary. In addition,
                 e-mail correspondence in the contract file revealed that our request to review
                 this contract prompted contracting officials to correct funding issues. To
                 illustrate, in a July 16, 2012, e-mail message, the contract specialist asked “a
                 program office official to take immediate action to deobligate approximately
                 $86,000 and fix errors on call order 1 because the OIG will arrive in the
                 morning to review the contract file.”

 II.      Contractor Oversight Procedures Need Improvement

       Departmental contracting and program officials did not sufficiently monitor contractor 

       performance. Specifically, these officials did not: 


          	 Develop quality assurance surveillance plans for 21 contract actions

          	 Maintain adequate documentation of completed contractor performance reviews or
             quality assurance evaluations for 35 contract actions

          	 Adequately support payment of contractor invoices for 28 contract actions


FINAL REPORT NO. OIG-14-001-A                                                                        6
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

       This inadequate monitoring could result in the Department accepting substandard
       performance by contractors, paying for services and items not received, and awarding
       contracts to vendors with a history of substandard performance. Adequately documenting
       contract monitoring is especially important, given the Department’s high use of T&M/LH
       contracts that place cost and performance risks on the Department.

       A. Lack of Quality Assurance Surveillance Plans (QASPs) and Missing Surveillance Documentation

              FAR12 and CAM state that T&M/LH contracts do not provide a positive profit incentive
              to the contractor for cost control or labor efficiency. Therefore, appropriate
              government oversight, also known as contract surveillance or quality assurance of
              contractor performance, is required to provide reasonable assurance that (a) efficient
              methods and effective cost controls are used throughout the life of the contract and (b)
              the contractor is performing in accordance with the
              statement of work. One way to ensure quality                 Surveillance plans and
              assurance is to develop a QASP.13 FAR14 states that           other documentation
              these plans should specify all work requiring                  were not prepared
              surveillance, including the method of surveillance, and
              that quality assurance records should be maintained as          or were missing.
              part of the contract file. CAM15 also states that, for
              T&M/LH contracts, the contract file shall contain, at a minimum, the surveillance plan
              outlining how the government will monitor, control, and mitigate the impact of any
              adverse performance. Monitoring of contractor’s performance is typically performed by
              a contracting officer’s representative (COR).16

              We found that contracting and program officials did not follow FAR and CAM criteria
              when administering T&M/LH contract actions. First, they either did not prepare or they
              did not maintain copies of QASPs in the contract file for about a third of the contract
              actions reviewed. For example, a NOAA contracting officer awarded a contract for a
              tsunami IT modernization project at a ceiling price of $500,000. Contracting officers
              told us that they could not provide the QASP, surveillance documentation, and
              timesheets because contract files for the base-year contract were missing because of a
              reorganization, personnel changes, and two office moves. Although NOAA maintained a
              file for the option year, surveillance documentation of the contractor’s performance was
              still missing.

              Second, although CORs were assigned to monitor the contractor’s performance, in
              most cases we found discrepancies in the rigor of the monitoring. For example:


                                                            
12
   FAR subsection 16.601. 

13
   QASPs should be prepared in conjunction with the preparation of the statement of work. 

14
   FAR subsections 46.401(a) and 4.803(b)(15). 

15
   CAM 1316.1 § 5.3.

16
   A COR is an individual designated and authorized in writing by the contracting officer to perform specific

technical or administrative functions.


FINAL REPORT NO. OIG-14-001-A                                                                                    7
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

                      	 NIST contracting officials awarded a contract action for accounting and financial
                         support services at a negotiated ceiling price amount of $312,560. Contracting
                         officials stated that surveillance documentation was not prepared and timesheets
                         were not maintained in the contract file.

                      	 Census Bureau contracting officials awarded a contract action for data product
                         development at a negotiated ceiling price of $25,000. Although a QASP was
                         prepared, the COR stated he did not document his surveillance results.

                      	 NOAA contracting officials awarded a contract action for an increased ceiling
                         price amount of $1,170,961. The QASP and COR assignment letter were missing
                         from the contract file, and NOAA officials also confirmed that surveillance
                         documentation was not prepared. These officials stated they were taking steps
                         to change the way business had been done in the past.

              According to the contract actions we reviewed, bureaus paid contractors about $33.1
              million.17 However, the documentation associated with $24.8 million (or 75 percent of
              dollars paid) lacked adequate support to determine whether payments made to the
              contractors were warranted. We estimate that, as of September 30, 2011,
              approximately $169.5 million was paid to contractors without adequate surveillance
              documentation of contractor performance, which we therefore identified as
              unsupported costs.18

              Without any documentation of contractor performance, there is no record of whether
              deliverables met acceptance criteria or quality standards. Contractors performing
              T&M/LH contracts are paid for the hours applied to the task, regardless of the outcome.
              Thus, without surveillance documentation, the Department does not have reasonable
              assurance that it is receiving appropriate value for dollars expended. Also, because the
              lengths of some contracts extend over multiple years, personnel turnover makes it
              difficult to make sure that surveillance steps will be taken through the life of the
              contract. Personnel changes also make it difficult to have uniform, historical
              documentation of the surveillance efforts available for review.

       B.	 Inadequate Support of Invoice Payments

              FAR19 states the government will pay the contractors when they submit vouchers
              approved by the contracting officer or the authorized representative. The contractors
              must substantiate vouchers, including any subcontractor hours reimbursed at the
              schedule’s hourly rate, with evidence of actual payment and with (1) individual daily job
              timekeeping records, (2) records that verify that employees meet the qualifications for

                                                            
17
   The $33.1 million represents the total amount paid to contractors as of March 2013.

18
   Due to the lack of surveillance documentation, we extrapolated the results of our sample to the universe of 

1,383 T&M/LH contracts awarded FYs 2009–2011. The estimate methodology was developed by using the lowest
value with a 95 percent confidence interval.
19
   FAR subsection 52.232-7.


FINAL REPORT NO. OIG-14-001-A                                                                                      8
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

              the labor categories specified in the contract, or (3) other substantiation approved by
              the contracting officer.

              We found that contractor invoices submitted for
              payment were often not supported by individual              Contractor invoices are
              timesheets outlining the labor category, hourly rate,      not thoroughly reviewed
              and daily hours charged for 28 contract actions.                 prior to payment.
              T&M/LH contract actions allow the contractor to
              charge a fixed profit for every labor hour worked.
              Therefore, it is imperative for contractor surveillance officials to review contractor
              invoices for accuracy and sufficient cost breakdowns. Examples of insufficiently
              supported contractor invoicing include the following:

                      	 On four orders issued against a blanket purchase agreement for professional
                         services, NOAA paid a contractor $1.4 million. The blanket purchase agreement
                         required the contractor to submit monthly invoices with employee labor and
                         cost summaries, such as timesheets that include employee names, titles, labor
                         categories, hourly rates, and hours worked. Although the invoices for these
                         orders indicated how many individuals performed the work and the rates for
                         each labor category, they did not include the total labor hours worked,
                         employee names, or a breakdown of hours by employee. For example, on one
                         invoice, the contractor requested payment in the amount of $57,247.86 for call
                         order 0001. The total amount invoiced included expenses for four labor
                         categories and travel. However, the contractor did not provide employee names,
                         a breakdown of hours worked by each employee, or travel receipts.

                      	 On July 6, 2009, Census Bureau contracting officials awarded a contract for
                         population estimates at a ceiling price of $13,885. The contractor submitted
                         invoices for payment but did not include documentation, such as timesheets,
                         labor hours expended, or labor rates to support the charges on the invoices.
                         Contracting officials made a decision to accept the contractor’s invoices based
                         on a percent of completion of the project, rather than actual labor hours
                         expended. Census Bureau officials stated that the contractor did not require its
                         employees to clock in or submit timesheets and that it set up an accounting
                         system for employees to record their labor hours. In addition, the contracting
                         officer technical representative retired, and contracting and program officials
                         could not locate her files. Ultimately, the Census Bureau paid the contractor
                         $13,199.

 III.	        Misunderstandings and Errors Cast Doubt on the Reliability of Data 

              Accuracy and Incomplete Reporting of T&M/LH Contracts 


       CAM20 states that contracting officers are responsible for ensuring that all required
       reporting included in Federal Procurement Data System – Next Generation (FPDS-NG)
                                                            
20
     CAM 1316.1 § 1.6.9.


FINAL REPORT NO. OIG-14-001-A                                                                               9
  DEPARTMENT OF COMMERCE
U.S.                                                                  OFFICE OF INSPECTOR GENERAL

    accurately reflects the contract type used. Maintaining accurate data is an essential
    component of good oversight and helps lead to informed decisions. In our sample of
    T&M/LH contracts, we found that the data reported in FPDS-NG were not accurate.

    Twelve of the 62 contract actions (almost 20 percent) in our sample were incorrectly
    coded in FPDS-NG. Six were coded as fixed price contracts when they were awarded as LH
    contracts (see table 3). Contracting officials at NIST stated that the six contract actions had
    mistakenly been entered into the FPDS-NG as firm fixed price contract actions.

            Table 3. NIST Contracts Actions Incorrectly Coded In FPDS-NG

                                                 Negotiated     Per             Per
                         Contract Action          Contract                   Contract
                                                  Amount      FPDS-NG       File Review
             1    RA1341-09-CQ-0061 T11162        $ 64,035    Fixed Price   Labor Hours
             2    RA1341-09-CQ-0061 T11163           52,367   Fixed Price   Labor Hours
             3    RA1341-09-CQ-0061 T11164          174,340   Fixed Price   Labor Hours
             4    RA1341-09-CQ-0061 T11167           34,012   Fixed Price   Labor Hours
             5    RA1341-09-CQ-0061 T10526           84,693   Fixed Price   Labor Hours
             6    RA1341-09-CQ-0061 T11194           74,849   Fixed Price   Labor Hours
                              6                   $484,296
          Source: OIG review of contract files

    Conversely, our review of the contract files determined that six other contract actions
    should have been coded as firm fixed price rather than a T&M or LH contract (see table 4,
    below). For instance, Census Bureau contracting officials stated that two contract actions
    (for mobile broadband connection plans and computer
    and software support services) in our sample had
    mistakenly been entered as T&M contracts in FPDS-
    NG. In addition, NOAA contracting officials confirmed 
          FPDS-NG data is
    that four contract actions identified as T&M/LH in               not fully reliable. 

    FPDS-NG should have been coded as firm fixed price. 





FINAL REPORT NO. OIG-14-001-A                                                                    10
  DEPARTMENT OF COMMERCE
U.S.                                                                                              OFFICE OF INSPECTOR GENERAL

                            Table 4. Census Bureau and NOAA Contract Designations 

                              According to the Contract File Review and FPDS-NG 

                                                               Negotiated                                Per
                                                                                   Per
                                 Contract Action                Contract                              Contract
                                                                                 FPDS-NG
                                                                Amount                               File Review
                      1        YA132311NC0312                    $ 86,367    Time-and-Materials     Firm Fixed Price
                      2        YA132309NC0858                       45,000   Time-and-Materials     Firm Fixed Price
                      3        SS133E10NC2974                       64,733      Labor Hours         Firm Fixed Price
                      4        EA133C11SE1653                        7,000   Time-and-Materials     Firm Fixed Price
                      5        RA133009BU0053                           0a   Time-and-Materials     Firm Fixed Price
                      6        EA133R11NC0980                        5,560   Time-and-Materials     Firm Fixed Price
                                       6                         $208,660
                  Source: OIG review of contract files
                  a
                   The contract amount is not provided because this contract action is a firm fixed price
                  blanket purchase agreement for cellular services to all bureaus within the Department of
                  Commerce. Funds are obligated against the individual task orders.

       Inaccuracies and deficiencies in maintaining a complete list of active T&M/LH contract
       actions occurred, in part, because contracting officials did not consistently ensure the
       accuracy of individual contract actions reported in FPDS-NG. This practice resulted in
       misreporting T&M/LH contract actions in FPDS-NG, which increases the risk of erroneous
       reporting to internal and external stakeholders such as Congress, OMB, and taxpayers.
       Having complete and accurate information allows contracting officials to monitor the use
       and execution of these types of contracts more effectively.

 IV.          Contract Files Are Missing or Lack Key Contract Documentation

       NOAA was unable to locate the contract file for two contracts identified in our sample.
       FAR21 requires the head of each office performing contracting, contract administration, or
       paying functions to establish files containing the records of all contract actions. Missing files
       are an indication of questionable contract management and oversight practices.

       We also found that contract files lacked documents, such as determinations and findings and
       QASPs. FAR22 requires that documentation in contract files be sufficient to constitute a
       complete history of the contract transactions to support informed decisions at each step in
       the acquisition process and provide information for reviews and investigations. In addition,
       the Government Accountability Office’s Standards for Internal Control in the Federal
       Government states that agencies should have internal control activities, such as the creation
       and maintenance of records that provide evidence of execution of approvals and
       authorizations. The need for well-maintained and complete contract files is important, not
       only for day-to-day contract administration but also for when the Department experiences
       turnover with its contracting staff. Complete contract files help ensure proper transfer of
       responsibilities among staff and continuity of operations.

                                                            
21
     FAR subsection 4.801(a).
22
     FAR subsection 4.801(b).


FINAL REPORT NO. OIG-14-001-A                                                                                             11
  DEPARTMENT OF COMMERCE
U.S.                                                                    OFFICE OF INSPECTOR GENERAL


    V.	   Funds on Completed T&M/LH Contracts Run the Risk of Not Being 

          Deobligated 


      Obligations that are no longer needed or exceed estimated needs should be deobligated
      and made available to fund other projects. The timely deobligation of funds could result in
      savings to the Department and also be used to fund other priorities. On one contract we
      reviewed—a Census Bureau contract for technical expertise in data collection operations—
      about $1.3 million in obligation remained outstanding after work was completed in
      September 2011. Despite the work’s completion, unexpended balances were not released.
      The contractor even submitted a final invoice for payment, dated October 5, 2011. We
      notified the contracting officer about this issue on March 13, 2012, and the contracting
      officer acknowledged he had not deobligated the funds. Immediately after our notification,
      the contracting officer issued a modification to deobligate the $1.3 million.

      This example is indicative of the issue that we identified in Monitoring of Obligation Balances
      Needs Strengthening (OIG-13-026-A). In this prior audit report, we found that the
      Department needs stronger internal controls, policies, and procedures to ensure that the
      bureaus’ obligations are adequately monitored and deobligated when appropriate. Because
      we have addressed this issue in that report, we are not making any recommendations here
      related to deobligating funds. However, this issue may suggest that other T&M/LH contracts
      can run the same risk of not deobligating inactive funds and would warrant better
      management of this issue by the bureaus.

Recommendations

      We recommend that the Director of Acquisition Management

          1.	 Include a review of T&M/LH contracts as part of the Department’s annual
              acquisition management reviews to ensure that contracting personnel:
                 	 Properly prepare and maintain determination and findings
                 	 Document changes in established ceiling prices
                 	 Prepare and maintain QASPs to document contractor performance

                 	 Verify contractor invoices with supporting documentation

          2.	 Monitor and evaluate the use and management of T&M/LH contracts through the
              acquisition review board and investment review board processes

          3.	 Improve the process for entering accurate and complete data into FPDS-NG

          4.	 Improve controls to properly maintain and safeguard contract files

 




FINAL REPORT NO. OIG-14-001-A                                                                      12
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
OIG received the Department’s comments on the draft report, which we include as appendix B
of this final report. In its response, the Department stated that some contract actions OIG
listed under NIST had first been awarded by NOAA then later transferred to NIST for contract
administration. Accordingly, the Department asked OIG to (a) identify those contract actions as
awarded by NOAA and (b) include a note of the period of performance for contract
administration by NIST. On July 26, 2013, we requested from NIST information about the
contract administration performance periods; however, the agency did not respond to our
request.

Based on the Department’s review of the draft and subsequent discussions, we have made
some suggested changes in the report. The Department concurs with the findings and
recommendations in the report.




FINAL REPORT NO. OIG-14-001-A                                                                13
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
The objective of our audit was to determine whether the Census Bureau, the National Institute
of Standards and Technology (NIST), and the National Oceanic and Atmospheric
Administration (NOAA) properly awarded and administered time-and-materials (T&M) and
labor-hour (LH) contract actions.

To accomplish our objective, we

    	 Evaluated Departmental practices against relevant policies and guidance, including Office
       of Management and Budget directives, the Federal Acquisition Regulation (FAR), and
       Departmental acquisition guidance

    	 Identified the total number of contract actions, contracts, and net obligations reported
       as T&M/LH for fiscal years (FYs) 2009–11 using the Federal Procurement Data System-
       Next Generation (FPDS-NG) (net obligations for T&M/LH contracts during this period
       were $1.3 billion, encompassing 1,383 contracts)

    	 Developed a random statistical sample by stratifying contracts by contracting agency

        o	 The Department gives 5 agencies (NOAA, NIST, the Census Bureau, Office of the
           Secretary, and the U.S. Patent and Trademark Office) contracting authority to serve
           all 13 Department agencies. Contracts were selected for testing at NOAA, NIST,
           and the Census Bureau on a proportionate basis, based on random number
           generation.
        o	 We did not select the Office of the Secretary for this audit because of its small
           dollar value. We will review the U.S. Patent and Trademark Office, which is exempt
           from the Federal Acquisition Regulation, in a separate audit.

    	 Reviewed 43 contracts composed of 62 contract actions

    	 Tested the reliability of FPDS-NG data by comparing information from the contract file
       with information gained in interviewing contracting officials (although the report notes
       problems with data quality in FPDS-NG, we found the data sufficient for generalizing
       issues found in the contracts we reviewed)

    	 Reviewed acquisition documentation, such as determination and findings documents,
       statements of work, price negotiation memorandums, quality assurance surveillance
       plans, contractor invoices and timesheets, voucher payment documentation, and training
       and certification requirements for contracting personnel and contracting officer
       representatives (CORs)




FINAL REPORT NO. OIG-14-001-A                                                                     14
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

    	 Reviewed contract files to determine whether payments were properly supported by
       timesheets and travel documentation and verified by the assigned COR before
       contracting officials approved payments

    	 Estimated the mean percent of contracts that failed our tests and the mean dollar value
       of contracts that failed each test (we developed a range of estimates based on a 95-
       percent confidence level and reported the lowest estimates predicted by the range).

We developed our estimation methodology (see table A-1, below) by using the lowest value for
estimates predicted by the 95-percent confidence interval. The margin of error for contracts
that were missing surveillance documentation is 12.9 percent. The mean value for a contract
missing surveillance documentation was $771,803, with a margin of error of $570,458.35. The
lower bound estimate of the mean value of contracts missing surveillance documentation is
$201,344.65. To estimate the minimum value of affected contracts, we multiplied the lower
bound estimate of the number of affected contracts (60.89%) by the number of contracts
(1,383) in our universe to estimate the minimum number of contracts affected (842 contracts).
We then multiplied this figure (842) by the lower bound estimate of the mean value of
contracts that failed ($201,344.65) to estimate that the minimum value of affected contracts is
$169.5 million.

                                       Table A-1. Estimation Methodology
                                          Estimated Minimum    Estimated Minimum         Estimated Minimum
                  Issue                      Percentage of          Number of                  Value of
                                          Contracts Affected   Contracts Affected         Contracts Affected
  Missing surveillance documentation            60.89%                 842                   $169.5 million

 Source: OIG

Further, we obtained an understanding of the internal controls used to award and administer
T&M/LH contracts by interviewing the acquisition personnel at the Census Bureau, NIST, and
NOAA and assessing their adherence to the requirements in the Commerce Acquisition
Manual (CAM). While we identified and reported on internal control deficiencies, no incidents
of fraud, illegal acts, violations, or abuse were detected within our audit. We identified
weaknesses in the controls related to the processes and procedures used to award and
administer T&M/LH contracts. We relied on computer-processed data to perform this audit.

We conducted the audit fieldwork between March 2012 and March 2013. We did our
fieldwork at the Census Bureau Acquisition Division in Suitland, Maryland; the NIST Acquisition
Management Division in Gaithersburg, Maryland; and the NOAA Acquisitions and Grants Office
in Silver Spring, Maryland. We conducted this audit in accordance with generally accepted
government auditing standards. We complied with those standards that require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions, based on our audit objectives. We performed our work under
the authority of the Inspector General Act of 1978, as amended, and Department
Organizational Order 10-13, August 31, 2006.




FINAL REPORT NO. OIG-14-001-A                                                                                  15
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                                  OFFICE OF INSPECTOR GENERAL


 Appendix B: Summary of Findings by Bureau and Contract Action 

                      Table B-1. Summary of Findings Associated with the Census Bureau’s Contract Actions
                                                                                                            Increase in                                Invoice
                                                                                                Contract                   Lack of
                                                                                 Negotiated                 Negotiated                   Missing      Payments
                         Contract                                                                 Type                     Quality
       Contract No.                       Specific Product or Service             Ceiling                      Ceiling                 Surveillance      Not
                          Type                                                                    Not                     Assurance
                                                                                   Price                     Price Not                Documentation   Adequately
                                                                                                Justified                   Plans
                                                                                                              Justified                               Supported
          YA132306 -                  Automated Export System
      1                 Labor Hours                                               $ 2,999,668      X                                       X              X
          NC0612                      Programming Support
          YA132309                    Central Indicator Data Repository
      2                 Labor Hours                                                  224,998
          –CN0040                     Support Services
                                      Business Research and Development
          YA132310 -    Time and
      3                               Innovation Survey Advisory and                 825,000                                               X
          CN0034        Materials
                                      Assistance Support Services
                                      A Research Initiative to Investigate the
          YA132310 -
      4                 Labor Hours   Privacy Aspects of Administrative               30,000                                               X
          SE0155
                                      Records Programs
                                      Federal State Cooperative Program for
          YA132309 -                  Population Estimates Agency’s
      5                 Labor Hours                                                   13,885                                               X              X
          SE0511                      Participation in the 2010 Count
                                      Review Program
          YA132310 -    Time and
      6                               2020 Census Research Program                  2,500,000      X                                       X              X
          CN0015        Materials
          YA132309 -    Time and      Data Product Development - Income
      7                                                                               25,000                                               X              X
          SE0452        Materials     Historical Topcode Revisions
          YA132309 -    Time and
      8                               IT Data Conversion Services                     61,895                                                              X
          SE0504        Materials
          YA132309 -                  Standard Economic Processing System
      9                 Labor Hours                                                 2,470,997      X            X                          X              X
          CQ0009                      II Redesign Support Services
                                      Research and Development for the
          YA132311 -    Time and
     10                               Longitudinal Employer Household                818,014       X            X                          X
          NC0163        Materials
                                      Dynamics Program
                                      Technical Expertise in Data Collection
          YA132310      Time and      Operations in Support of the Field
     11                                                                             5,754,836      X                                       X
          –NC0488       Materials     Data Collection and Automation
                                      Contract
                                                                      Totals     $15,724,293       5            2            0              9             6

    Source: OIG review of contract files 




FINAL REPORT NO. OIG-14-001-A                                                                                                                                      16
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                            OFFICE OF INSPECTOR GENERAL


                             Table B-2. Summary of Findings Associated with NIST’s Contract Actions
                                                                                                      Increase in                                Invoice
                                                                                          Contract                   Lack of
                                                                                                      Negotiated                   Missing      Payments
                        Contract                                          Negotiated        Type                     Quality
      Contract No.                      Specific Product or Service                                      Ceiling                 Surveillance      Not
                         Type                                             Ceiling Price     Not                     Assurance
                                                                                                       Price Not                Documentation   Adequately
                                                                                          Justified                   Plans
                                                                                                        Justified                               Supported
          DG132508     Time-and-
      1                              IT Customer Support                  $ 3,351,393        X            X            X             X              X
          - CN0155     Materials
          DG132508                   Accounting and Financial Support
      2                Labor Hours                                            312,561        X                         X             X              X
          - NC0836                   Services
          RA134109
                                     Quantum Information and
      3   - CQ0005 -   Labor Hours                                             52,604        X
                                     Measurements Project
          T0044
          RA134109
                                     Sensors Project and Quantum
      4   - CQ0005     Labor Hours                                             27,298        X
                                     Sensors Program
          – T0045
          RA134109
                                     Sensors Project and Quantum
      5   - CQ0005     Labor Hours                                             27,298        X
                                     Sensors Program
          – T0046
          RA134109
                                     Advanced Magnetic and Quantum
      6   - CQ0005     Labor Hours                                             50,960        X
                                     Materials Project
          – T0047
          RA134109
                                     Advanced Magnetic and Quantum
      7   - CQ0005     Labor Hours                                             41,425        X
                                     Materials Project
          – T0048
          RA134109
                                     Superconducting Quantum
      8   - CQ0005     Labor Hours                                             94,589        X
                                     Interference Devices
          – T0049
          RA134109
      9   - CQ0063     Labor Hours   WWVH Radio Station                       134,065        X
          – T0011
          RA134109
     10   - CQ0063     Labor Hours   WWVH Radio Station                       213,460        X
          – T0013
          RA134109
     11   - CQ0063     Labor Hours   Compact Magnetic Sensors                  89,394        X
          – T0014
          RA134109
     12   - CQ0063     Labor Hours   Compact Alkali Atom Atomic Clock         137,003        X            X
          – T0015
          RA134109
                                     NIST Time Scale Operational
     13   - CQ0063     Labor Hours                                            134,010        X
                                     Support
          – T0016
          RA134109
                                     Engineering Support for Structural
     14   - CQ0066     Labor Hours                                             64,035        X
                                     Materials
          TO 11162




FINAL REPORT NO. OIG-14-001-A                                                                                                                                17
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                             OFFICE OF INSPECTOR GENERAL

                                                                                                       Increase in                                Invoice
                                                                                           Contract                   Lack of
                                                                                                       Negotiated                   Missing      Payments
                        Contract                                           Negotiated        Type                     Quality
      Contract No.                      Specific Product or Service                                       Ceiling                 Surveillance      Not
                         Type                                              Ceiling Price     Not                     Assurance
                                                                                                        Price Not                Documentation   Adequately
                                                                                           Justified                   Plans
                                                                                                         Justified                               Supported
          RA134109
                                     Acoustic Emission Calibration using
     15   - CQ0066     Labor Hours                                              53,867        X            X
                                     Reference Block
          TO 11163
          RA134109
                                     Senior Engineering Support for
     16   - CQ0066     Labor Hours                                             175,340        X
                                     Structural Materials
          TO 11164
                                     Electron Microscopy and Electron
          RA134109
                                     Backscatter Diffraction
     17   - CQ0066     Labor Hours                                              48,096        X            X
                                     Characterization of Thin Films and
          TO 11167
                                     Nanostructures
          RA134109
     18   - CQ0066     Labor Hours   Hydrogen Pipeline Safety Project           84,693        X
          TO 10526
          RA134109
                                     Charpy Impact Verification Project
     19   - CQ0066     Labor Hours                                              74,849        X
                                     Support
          TO 11194
          RA134109
                                     Senior Administration Assistance
     20   - CQ0066     Labor Hours                                              12,435        X
                                     Support
          TO 11283
          RA134110
                                     Quantum Dot Optically Gated Field
     21   - CQ0022     Labor Hours                                              83,451        X
                                     Effect Transistors
          – T0001
          RA134110
     22   - CQ0022     Labor Hours   Quantum Optical Metrology                 144,466        X                                       X              X
          – T0004
          SB132509 -
                                     Revolving Loan Fund Management
     23   CQ0003 –     Labor Hours                                             661,660        X            X            X             X              X
                                     System
          69403
                                                                  Totals   $6,068,957         23           5            3              4             4

   Source: OIG review of contract files




FINAL REPORT NO. OIG-14-001-A                                                                                                                                 18
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                                   OFFICE OF INSPECTOR GENERAL


                              Table B-3. Summary of Findings Associated with NOAA’s Contract Actions
                                                                                                             Increase in                                Invoice
                                                                                                                            Lack of
                                                                                                Contract     Negotiated                   Missing      Payments
                            Contract                                           Negotiated                                   Quality
           Contract No.                   Specific Product or Service                           Type Not        Ceiling                 Surveillance      Not
                             Type                                              Ceiling Price                               Assurance
                                                                                                 Justified    Price Not                Documentation   Adequately
                                                                                                                             Plans
                                                                                                               Justified                               Supported
                                        Mandate for the Mid-Atlantic
               EA133C06 -   Time and
       1                                Bottlenose Dolphin Mortality and        $    405,841        X                         X             X              X
               NC2135       Materials
                                        Stock Identification
               AB133F06 -               Hardware and Software
                            Labor
       2       BU0054 –                 Configuration, Testing, and                  500,000        X                         X             X              X
                            Hours
               CO018                    Installation
               EA133E09 -   Time and
       3                                Global Climate Observing System             4,597,572       X                         X             X              X
               NC1317       Materials
                                        Strategy Execution and Evaluation
               RA133M11 -   Labor
       4                                Budgeting Process for FY 2012 -               77,700        X                         X             X
               NC0956       Hours
                                        2018
                                        Harmful Algal Blooms/ Marine Bio-
               EA133C10 -   Time and
       5                                toxins and Marine Forensic Science           218,514        X                                       X
               NC0587       Materials
                                        Research
                                        Harmful Algal Blooms/ Marine Bio-
               EA133C10 -   Time and
       6                                toxins and Marine Forensic Science           312,561        X                                       X
               NC0589       Materials
                                        Research
               AB133C11 -   Time and    Business Support for the Office of
       7                                                                            5,923,831                                 X             X              X
               NC0406       Materials   Response and Restoration
               EA133009 –   Labor       End-to-End Resource Management
       8                                                                             590,682                                  X             X              X
               NC0370       Hours       Project
                                        Translation of the Commercial
               DG135008 -   Labor
       9                                Service brand into print and other           172,288        X                         X             X              X
               NC1270       Hours
                                        multi-media applications
               EA133F06 -   Time and    Marine Resources Education
      10                                                                              97,741                                  X             X              X
               SE4981       Materials   Program
               EA133C07 -   Time and    Applied Ecology and Restoration
      11                                                                             280,804        X                                       X              X
               NC1129       Materials   Research
               DG133W11     Labor       Tsunami Information Technology
      12                                                                             500,000        X                         X             X              X
               - NC0120     Hours       Modernization Project
               FH133M09 -   Time and    Emergency Repair on NOAA Ship
      13                                                                               9,000        X                         X             X              X
               SE1611       Materials   Oregon II
                                        Information Technology
               DG133E10 -   Time and
      14                                Infrastructure Support for NESDIS           3,495,988       X
               SE0731       Materials
                                        Headquarters
                                        Scientific and Technical Support
               EA133F10 -   Time and
      15                                Services for the Northeast Fisheries         586,180                                                X              X
               NC2815       Materials
                                        Science Center
                                        Information Technology Services for
               RA133R09 -   Labor
      16                                the Earth System Research                   1,170,962       X                         X             X
               NC1013       Hours
                                        Laboratory



FINAL REPORT NO. OIG-14-001-A                                                                                                                                       19
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                                  OFFICE OF INSPECTOR GENERAL

                                                                                                            Increase in                                Invoice
                                                                                                                           Lack of
                                                                                               Contract     Negotiated                   Missing      Payments
                          Contract                                             Negotiated                                  Quality
        Contract No.                    Specific Product or Service                            Type Not        Ceiling                 Surveillance      Not
                           Type                                                Ceiling Price                              Assurance
                                                                                                Justified    Price Not                Documentation   Adequately
                                                                                                                            Plans
                                                                                                              Justified                               Supported
                                      Research on the Effects of Coastal
            EA133C09 -    Time and
      17                              Habitat Change and Restoration on             454,374        X            X            X             X              X
            NC1479        Materials
                                      Living Marine Resources
            AB133C11 -    Time and
      18                              Data Conversion Services                      350,000                                  X                            X
            CN0138        Materials
            DG133E10 -                Support Services to enhance the
                          Time and
      19    BU0085 –                  mission of the Office of Satellite and      3,429,234        X            X            X
                          Materials
            Call 0001                 Product Operations
                                      Data Management and Editing
            EA133F10 -    Time and
      20                              Support to Assess the Status of               115,054        X                                       X
            NC2428        Materials
                                      Marine Mammal Populations
                                      Enhance the Enforcement
            EA133F07 -    Time and
      21                              Capabilities of Office for Law              8,693,046        X            X            X
            NC0660        Materials
                                      Enforcement Programs
            RA133M11 -
                          Labor       Strategic Planning Effort Utilizing
      22    BR0011 Call                                                             402,249        X                                       X              X
                          Hours       Professional Services and Support
            Order 0001
            RA133M11 -                Redesign Integrated Prioritization,
                          Labor
      23    BR0011 Call               Allocation and Scheduling Process              67,960        X                                       X              X
                          Hours
            Order 0002                for Ships and Aircraft
            RA133M11 -
                          Labor
      24    BR0011 Call               Business Process Redesign                     398,187        X                                       X              X
                          Hours
            Order 0003
            RA133M11 -
                          Labor
      25    BR0011 Call               Business Process Reengineering                718,835        X                                       X              X
                          Hours
            Order 0004
            EA133F09 -    Time and    First Mate Requirement on the
      26                                                                            178,551                     X            X
            NC2368        Materials   NOAA Research Vessel
                                      Consultant Services for the Ocean
            EA133C07 -    Time and
      27                              Systems Test and Evaluation                   277,887                                  X
            NC1785        Materials
                                      Program
                                      Systems Engineering Support for the
            DG133W09      Labor
      28                              Weather Radio Improvement                   2,760,160        X                         X             X              X
            - NC0668      Hours
                                      Program
                                                                    Totals     $36,785,201        21            4            18            22            18

    Source: OIG review of contract files




FINAL REPORT NO. OIG-14-001-A                                                                                                                                      20
  DEPARTMENT OF COMMERCE
U.S.                                                OFFICE OF INSPECTOR GENERAL


Appendix C: Potential Monetary Benefits 

                                Unsupported        Funds Put
                                   Costs         to Better Use

             Finding II         $169.5 million

             Finding V                            $1.3 million




FINAL REPORT NO. OIG-14-001-A                                               21
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL


Appendix D: Agency Response 





 




FINAL REPORT NO. OIG-14-001-A                           22
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




 




FINAL REPORT NO. OIG-14-001-A                           23
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL




011200000136 





FINAL REPORT NO. OIG-14-001-A                           24
